                                                                                     -
-
                                CLOSEOUT FOR M96050014



'
        This case came to OIG on May 24, 1996, when                       an Assistant General
Counsel at NSF, informed us of an allegation that 0                  (the subject) of
                      (the subject's institution) had improperly disclosed information he had




                                                 --
received as part of NSF's confidential panel review process. The Assistant General Counsel
had received a memorandum from                             the director of the Division of




-
(             t            h              e Division Director) in the Directorate for-
                                           (the Directorate), and, -                       a
program officer who administeredthe Division's -program                              (the program
officer). The memorandum, addressed to the Directorate's Assistant Director
recommended that NSF "officially remove" the subject from the Directorate's list of potential
merit reviewers.

       OIG interviewed the program officer. The program officer explained that
       of -(Scientist                   #1) and                       of
0(Scientist #2), in separate conversations, had alleged to the program officer that,
during a workshop they attended at the subject's institution, the subject made the improper
disclosures. The disclosures allegedly concerned confidential information from a
,         Directorate panel that evaluated nominees for Presidential Faculty Fellowships. OIG
sought and received accounts of the subject's actions from the subject and the two scientists.

        The subject admitted that, in informal conversations during the workshop, he told
Scientist #1 that Scientist #l's work had been well received at a "Washington panel" meeting.
Although it is uncertain whether the panel was named, the context of the conversation made
clear what panel the subject had attended. Scientist #1 recalled that the subject indicated his
own view of Scientist #l's qualifications, as documented in the materials submitted to support
Scientist #l 's nomination; the subject did not recall this portion of the conversation. Scientist
#2 recalled that the subject told her about her approximate position in the panel rankings; the
subject recalled seeing Scientist #2 at the workshop, but did not recall telling her about the
panel ranking. The subject characterized his disclosure of a confidential panel assessment as
"regrettable" and as a "mistake."

        OIG believes that NSF should strongly affirm the importance of maintaining the
integrity of its confidential merit review process when, as in this case, breaches of
confidentiality come to NSF's attention. In this case, we noted several factors that mitigated
the seriousness of the subject's actions: the subject did not reveal confidential information to
either scientist about (I) candidates other than themselves, (2) the content of materials

                                      page 1 of 3                               M96- 14
                               CLOSEOUT FOR M96050014

submitted to NSF to support other candidacies, (3) the evaluations other panelists made, or (4)
the identities of other panelists. Because of these factors, we concluded that the subject's
actions, though they warranted a formal response from NSF, could not be considered serious
enough to be misconduct in science.

         OIG drafted a memorandum to the Division Director recommending that he write to the
subject and request that the subject (1) review NSF's policy concerning the confidentiality of
the merit review process and (2) assure the Division Director in writing that he fully
understands NSF's policy and promises to adhere to it in the future. We further recommended
that, if the subject provided the requested written assurance, the Division Director should
withdraw the memorandum recommending that NSF formally remove the subject from the
Directorate's list of potential reviewers and take no further action in this case.

        We sent the draft memorandum to the subject for comment. In his reply, the subject
stated that he had reviewed NSF's policy and promised to adhere to it in the future. OIG
concluded that the subject's reply substantially complied with our recommended action and that
NSF did not need to seek further assurances from the subject. We revised the memorandum to
reflect these conclusions. We sent the memorandum to the Division Director, who opined that
the matter had been "satisfactorily concluded as a result of' OIG's efforts and decided that
further NSF action was not required.

        We informed the Assistant General Counsel of the Division Director's decision, and he
told us that his office planned to take no further action concerning the matter.

        While gathering facts concerning the allegations against the subject, OIG received
related allegations from both the subject and Scientist #1 that a former NSF program officer,
I,                     had behaved improperly in the course of the review process. The
former program officer allegedly made inappropriate disclosures to third parties of general
information about the character and quality of certain scientists' proposal submissions and
about how NSF had evaluated those submissions. She also allegedly made an inappropriate
request for a personal favor from a scientist whose proposal was being reviewed by her
program.

        We determined that it was impracticable to take disciplinary action against a former
employee for improprieties of the gravity that had been alleged in this case. We decided that
investigating these allegations would be worthwhile if NSF were considering reemploying the
former program officer. We asked the director of the former program officer's division
whether NSF might reemploy the former program officer in the foreseeable future,
emphasizing that it would be unfair to reduce the former program officer's reemployment
prospects on the basis of unsubstantiated allegations of improper conduct. The division
director informed us that, independent of the allegations, there was no significant likelihood
that his division would reemploy the former program officer.

      When we closed the case against the subject, we informed the former program officer,
who was aware of the allegations against the subject, of the outcome. In doing so, we

                                      page 2 of 3                             M96- 14
                                 CLOSEOUT FOR M96050014

discussed with her the importance of maintaining the confidentiality of NSFYsmerit review
process. We noted that characterizing confidential materials or deliberations to unauthorized
persons, even in general terms, could violate the confidentiality that NSF promises to scientists
who submit and review proposals.

         While this case was in process, an NSF program officer,
informed us that the subject was serving on an NSF review panel.- The program officer alleged
that NSF had prohibited the subject from panel service. We ascertained that there was no such
prohibition in place and that this allegation therefore lacked substance. The program officer
further alleged that the subject had participated in reviewing a proposal with which he had a
conflict of interests. OIG learned that the proposal in question was from a group in whose
scientific activities the subject had previously participated, but with which he had no current
affiliation and from which he derived no financial benefit. We noted that the subject did not
try to hide his past ties from NSF, as evidenced by the fact that he mentioned them during the
panel deliberations. We determined that NSF's conflicts of interests rules made it a matter of
judgment whether these ties were such that the subject needed to be recused from reviewing a
proposal from the group. We noted that the five program officers running the panel were
divided on this point. We concluded that the subject could not be considered to have .
committed a serious ethical transgression by failing to recuse himself.

        This inquiry is closed and no further action will be taken on this case.

CC:   IG, AIG-0




                                       page 3 of 3
